No. ______
In the Supreme Court of the United
__________________

States

JASON CUNNINGHAM, Individually and as Adult
Natural Son and Sole Wrongful Death Beneficiary
and next of Kin, Affiant and Administrator Ad Litem
and Personal Representative for Nancy Jane
Lewellyn, Deceased and Estate of Nancy Jane
Lewellyn,
Petitioner,
v.
ROBERT PASCHAL, Individually and in his Official
Capacity as a Shelby County Sheriff’s Deputy and
MARVIN WIGGINS, Individually and in his Official
Capacity as a Shelby County Sheriff’s Deputy,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
DANIEL A. SEWARD
Counsel of Record
SEWARD LAW FIRM
4510 Chickasaw Road
Memphis, TN 38117
(901) 647-5848
sewardlawfirm@aol.com
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Does the ruling in this case by the U.S. Court of
Appeals for the Sixth Circuit violate basic fundamental
principles of Rule 56 of the Federal Rules of Civil
Procedure and therefore in direct conflict with existing
precedent of the United States Supreme Court’s
holdings in Tolan v. Cottan, 572 U.S. 650 (2014) and
Scott v. Harris, 550 U.S. 372 (2007) when the Sixth
Circuit refused to view any of the facts in the light
most favorable to the nonmoving party which were not
“utterly discredited” by the dash cam videos but rather
should have been viewed in in the light most favorable
to the Petitioner in conjunction with the videos to show
a dispute as to material fact as to whether Lewellyn
posed a threat of death or serious bodily injury at the
time she was shot ten (10) times? The Sixth Circuit
refused and/or did not consider deposition testimony
from Respondent Paschal who was outside of his SUV,
regarding distance and cover between Paschal and
Lewellyn and two photograph exhibits identified by
Respondent Paschal that depict the scene of the
shooting of Lewellyn and the position, field of vision
and line of sight of Respondent Paschal when he fired
his first shot from sixty feet away behind the cover of
Jayroe’s SUV that establishes a dispute as to material
fact that Lewellyn was not pointing the bb gun at
Paschal or anywhere in his vicinity and therefore posed
no objective reasonable threat of death or serious bodily
injury to Paschal which establishes a dispute as to
material facts and contradicts Paschal’s deposition
testimony and the dash cam videos constitutes
admissible evidence of a violation of Nancy Lewellyn’s
constitutional rights that were clearly established,

ii
precluding summary judgment on the basis of qualified
immunity. (ECF Nos. 93, 93-1, Photographs, PageID
489, PageID490)
2. Does the continued shooting of a mentally
disturbed suspect such as Lewellyn, eight (8) times by
Respondents after Paschal has shot her two times and
the dash cam videos clearly show that Lewellyn had
obviously surrendered the bb gun and/or fell to the
ground incapacitated without the bb gun or weapon
and posed no threat to Respondents, constitute
gratuitous violence and excessive force that is a
constitutional violation and clearly established under
the law and/or an obvious case under the existing
precedent and holdings of the United States Supreme
Court in Plumhoff v. Rickard, 572 U.S. 765 (2014),
precluding summary judgment on the basis of qualified
immunity?

iii
LIST OF PARTIES
All parties to the proceeding in the court whose
judgment is the subject of this petition appear in the
caption of the case on the cover page.
Shelby County, Tennessee and Sheriff William
Oldham are not parties to the proceeding in the court
whose judgment is the subject of this petition.
No corporations are involved in these proceedings.
RELATED CASES
Cunningham v. Shelby County, Tennessee et al.,
No. 2:18-cv-02185-TLP-dkv U.S. District Court for the
Western District of Tennessee at Memphis. Order
Denying Summary Judgment on April 1, 2020.
(Appendix B)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(April 19, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion for Summary
Judgment Based on Qualified
Immunity in the United States
District Court for the Western District
of Tennessee
(April 1, 2020) . . . . . . . . . . . . . . . App. 12

v
TABLE OF AUTHORITIES
CASES
Bletz v. Gribble,
641 F.3d 743 (6th Cir. 2011). . . . . . . . . . . . . 26, 28
Bouggess v. Mattingly,
482 F.3d 886 (6th Cir. 2007). . . . . . . 25, 27, 28, 30
Brandenburg v. Cureton,
882 F.2d 211 (6th Cir. 1989). . . . . . . . . . . . . 28, 29
Ciminillo v. Streicher,
434 F.3d 461 (6th Cir. 2006). . . . . . . . . . . . . . . . 26
Craighead v. Lee,
399 F.3d 954 (8th Cir. 2005). . . . . . . . . . . . . . . . 30
Davenport v. Causey,
521 F.3d 544 (6th Cir. 2008). . . . . . . . . . . . . . . . 24
Dickerson v. McClellan,
101 F.3d 1151 (6th Cir. 1996). . . . . . . . . . . . 27, 29
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . . . . 26
King v. Taylor,
694 F.3d 650 (6th Cir. 2012). . . . . . . . . . 26, 28, 29
Kirby v. Duva,
530 F.3d 475 (6th Cir. 2008). . . . . . . . . . . . . . . . 27
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . . . . . . . 28
Latits v. Phillips,
878 F.3d 541 (6th Cir. 2017). . . . . . . . . . . . . . . . 28

vi
Margeson v. White County, Tennessee,
579 Fed.Appx. 466 (6th Cir. 2014) . . . . . . . . 21, 30
McCaig v. Raber,
515 Fed.Appx. 551 (6th Cir. 2013) . . . . . . . . . . . 21
Mullins v. Cyranek,
805 F.3d 760 (6th Cir. 2015). . . . . . . . . . 25, 26, 27
Plumhoff v. Rickard,
572 U.S. 765 (2014). . . . . . . . . . . . . . . . . . . . 20, 29
Robinson v. Bibb,
840 F.2d 349 (6th Cir. 1988). . . . . . . . . . . . . . . . 26
Sample v. Bailey,
409 F.3d 689 (6th Cir. 2005). . . . . . . . . . . . . . . . 26
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 25
Schreiber v. Moe,
596 F.3d 323 (6th Cir. 2010). . . . . . . . . . . . . . . . 24
Scott v. Harris,
550 U.S. 372 (2007). . . . . . . . . . . . . . . . . 19, 24, 33
Sigley v. City of Parma Heights,
437 F.3d 527 (6th Cir. 2006). . . . . . . . . . . . . . . . 26
Tennessee v. Garner,
471 U.S. 1 (1983). . . . . . . . . . . . . . . . . . . . . . 26, 27
Thomas v. City of Columbus,
854 F.3d 361 (6th Cir. 2017). . . . . . . . . . . . . . . . 27
Tolan v. Cottan,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . 19, 33

vii
Untalan v. City of Lorain,
430 F.3d 312 (6th Cir. 2005). . . . . . . . . . . . . . . . 27
Yates v. City of Cleveland,
941 F.2d 444 (6th Cir. 1991). . . . . . . . . . . . . . . . 26
CONSTITUTION AND STATUTES
U.S. Const., amend. IV. . . . . . . . . . . . . . . . . . . . . . 1, 2
28 U.S.C. Section 1254(1) . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. Section 1983. . . . . . . . . . . . . . . . . . . . . . . . 2
RULES
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 33

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Jason Cunningham respectfully petitions
for a Writ of Certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit in
this case.
OPINIONS BELOW
The decision of the U.S. Court of Appeals for the
Sixth Circuit was entered on April 19, 2021 for
publication but not reported to date and reproduced in
Appendix A. The district court’s unreported decision
denying summary judgment was entered on April 1,
2020 is reproduced in the Appendix B.
JURISDICTIONAL STATEMENT
The court of appeals entered its judgment on April
19, 2021. Pet. App. A. This Court has jurisdiction under
28 U.S.C. Section 1254(1). The United States Court of
Appeals for the Sixth Circuit’s judgment in this cause
was issued prior to July 19, 2021 and the deadline to
file a petition for writ of certiorari was extended 150
days to September 16, 2021 in which to file a petition
for writ of certiorari. (ORDER LIST: 594 U.S.)
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const., amend. IV, provides:
The right to the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated and no warrants shall issue, but upon
probable cause, supported by oath or affirmation

2
and particularly describing the place to be
searched, and the persons or things to be seized.
42 U.S.C. Section 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress. . .
INTRODUCTION
For purposes of this Petition for Writ of Certiorari,
Petitioner Jason Cunningham will be referred to as
Petitioner and/or Cunningham and Nancy Jane
Lewellyn, Deceased will be referred to as “Lewellyn”.
Respondent Robert Paschal will be referred to as
“Paschal”. Respondent Marvin Wiggins will be referred
to as “Wiggins”.
Petitioner Jason Cunningham, is the adult natural
son of Nancy Lewellyn, Deceased who was shot ten (10)
times by Respondents Marvin Wiggins and Robert
Paschal in the driveway of her home and died on March
17, 2017. Petitioner respectfully submits that
Respondents’ Motion for Summary Judgment on the
basis of qualified immunity was properly denied by the
District Court pursuant to Rule 56 of the Federal Rules
of Civil Procedure, as there are material issues of fact
in dispute involving the shooting and death of Nancy

3
Lewellyn and that her shooting and resulting Wrongful
Death were objectively unreasonable under the totality
of the circumstances and in violation of clearly
established law. Petitioner respectfully submits that
Sixth Circuit’s Order granting summary judgment to
Respondents on the basis of qualified immunity was
error and in conflict with Rule 56 of the Federal Rules
of Civil Procedure and existing precedent of the United
States Supreme Court.
A portion of the record in this cause consists of video
from three different Dashcams mounted on the three
separate Shelby County Sheriff’s Deputies’ SUVs. (ECF
No. 83-3, SUV Dashcams 1, 2, 3, PageID#345) All three
SUVs contained cameras that record looking forward
from the SUV and also record looking backward from
the SUV.
The three video cams capture some of the material
facts but do not capture all of the material facts as
Paschal, Wiggins and Deputy Jayroe were standing
and moving outside of their SUV’s. The videos do not
show the sight line and/or field of vision of the
Respondents at the time when Respondents shot
Lewellyn while standing outside of their SUVS at a
minimum distance of sixty (60) feet. The videos do not
show Respondents’ perspective at all times. The
dashcam videos never blatantly contradict the
Petitioner’s version of events so that no jury could
believe it. Further, the Court of Appeals did not view
the Petitioner’s evidence in the light most favorable to
the nonmoving party when the Court refused to
consider the deposition testimony and photographic
evidence offered and introduced through Paschal in his

4
deposition that when viewed in conjunction with the
dash cam videos creates a material issue of fact in
dispute that must be decided by a jury and summary
judgment for Respondents should not have been
granted.
After the first two shots fired by Paschal, both
Respondents shot Nancy Lewellyn a combined eight
more times after she had surrendered the bb gun in
obvious plain sight and Respondents continued to shoot
her while she was falling and after she had fallen to the
ground without the bb gun or weapon in her hand
constituting gratuitous violence and excessive force
that is a constitutional violation and clearly established
under the law and/or an obvious case.
Deputy Jayroe was the first deputy on the scene and
the closest to Lewellyn at the time of the shooting and
Deputy Jayroe never fired his weapon at Lewellyn
even though Paschal and Wiggins shot Lewellyn ten
(10) times at a distance of sixty (60) feet or greater.
STATEMENT OF THE CASE
Petitioner respectfully states the following viewed
in the light most favorable to the nonmoving party,
considering all of the admissible evidence offered in
this cause which is not blatantly contradicted by the
three dash cam videos: On March 17, 2017, Nancy
Lewellyn was fifty-nine years old and living at the
home of her adult son, Jason Cunningham (Petitioner)
whose address was 10016 Woodland Pine Cove West in
Lakeland, Tennessee. (ECF No. 1, Complaint, PageID#
4-5). On this date, at approximately 12:00 p.m., Nancy
Lewellyn, who was obviously suffering from some type

5
of mental or emotional crisis and/or mental disorder,
called 911 Emergency Dispatch and stated that she
was out of her medicine, depressed and suicidal and
that she had a gun and was threatening to kill herself
and anyone who came to her residential address and to
tell them that she was sorry for doing so. (ECF No. 1,
Complaint, PageID# 4-5) During this 911 telephone
call, three Shelby County Deputies were dispatched to
Nancy Lewellyn’s address in three separate SUV’s.
(ECF No. 83-3, Dashcams 1,2,3, PageID#345) Shelby
County Sheriff’s Deputy Justin Jayroe is not a named
party to this litigation and was alone in his Shelby
County Sheriff’s SUV and he was the first to arrive
outside of the home located at 10016 Woodland Cove
West. (ECF No. 83-3, SUV Dashcam 1, Page ID#345)
Deputy Jayroe had certification on that date as a Crisis
Intervention Team member in dealing with the
mentally ill. (ECF No. 101, Newspaper Article,
PageID# 605-606) Deputy Jayroe never fired his pistol
at Nancy Jane Lewellyn even though Deputy Jayroe
was the closest to Nancy Jane Lewellyn at the time of
the ten shots were fired by Paschal and Wiggins.
Immediately right behind Deputy Jayroe, Respondent
Robert Paschal arrived on the scene of Nancy
Lewellyn’s home and parked behind Jayroe’s SUV.
(ECF No. 83-3, SUV Dashcams 1, 2, 3, PageID# 345)
Paschal was not certified as a member of the Shelby
County Sheriff’s Department’s Crisis Intervention
Team on the date of the shooting of Nancy Lewellyn.
(ECF No. 101, Newspaper Article, PageID# 605-606) It
is disputed as to how much information Paschal
actually had concerning the nature of the call and
Lewellyn when he arrived on the scene because as he

6
arrives someone can be heard on the dash cam video
saying “Whose the complainant?”
Respondent Marvin Wiggins is also a Shelby County
Sheriff’s Deputy who arrived on the scene last and he
parked his SUV behind Defendant Paschal’s SUV.
(ECF No. 83-3, SUV Dashcam 3, PageID# 345) Wiggins
was also not certified as a member of the Shelby
County Sheriff’s Department’s Crisis Intervention
Team on the date of the shooting of Nancy Lewellyn.
(ECF No. 101, Newspaper Article, PageID# 605-606)
It is undisputed that Nancy Lewellyn never had
any type of verbal communication nor did she make
any verbal threats directly to Wiggins or Paschal prior
to being shot ten (10) times. It is undisputed that
Nancy Lewellyn did not harm anyone prior to the
arrival of Wiggins, Paschal and Deputy Jayroe or prior
to being shot ten times by Paschal and Wiggins.
Lewellyn was never charged with any crime as a
result of anything that took place on March 17, 2017.
The nature of Lewellyn’s call to Shelby County
Dispatch was a 911 telephone call made by someone
who was suffering from some type of mental and/or
emotional issue and a cry for help or attention. The
Shelby County Sheriff’s Dispatcher sent armed
deputies to Lewellyn’s home, including Paschal and
Wiggins rather than mental health professionals to
assist and help Lewellyn.
After Paschal, Wiggins and Deputy Jayroe arrived
in the cove immediately in front of Lewellyn’s home,
Nancy Lewellyn walked out of the front door of her
home and was holding a bb gun in her right hand but
did not aim it at anyone. (ECF No. 83-3, SUV Dashcam

7
1, Page ID# 345) (ECF No. 100, Wiggins Deposition,
PageID# 577-578, 582-583, 603-604) (ECF Nos. 93 and
93-1, Exhibit Photographs, PageID#489-490) It is not
a crime in the State of Tennessee to possess a bb gun
on personal property and/or at your home. Further,
there had been no history of prior calls to 911 at this
residence prior to this date.
Nancy Lewellyn turned to her right as she exited
her front door. Respondent Marvin Wiggins,
Respondent Robert Paschal and Deputy Justin Jayroe
never identified themselves as Shelby County Sheriff’s
Deputies, never told and/or ordered Nancy Lewellyn to
drop the bb gun and/or weapon, never told Lewellyn to
show her hands and never gave Lewellyn any
warning of any type prior to the ten (10) shots
being fired at Nancy Lewellyn. (ECF No. 83-3, SUV
Dashcam 1, PageID# 345) It is undisputed that Nancy
Lewellyn never walked into the grass in front of her
residence with the bb gun when she walked out of the
front door but instead she turned to her right and
walked away from Paschal, Wiggins and Deputy
Jayroe, on the concrete walkway connected to her
driveway. (ECF No. 83-3, SUV Dashcam 1, PageID#
345) Undisputed that Nancy Lewellyn never fired a
shot at Wiggins or Paschal or Deputy Jayroe or anyone
else in the vicinity. (ECF No. 83-3, SUV Dashcam 1,
PageID# 345) There is no proof that there was anyone
else present at the scene or the immediate area prior
to the shooting except Lewellyn, Paschal, Wiggins and
Deputy Jayroe.
Wiggins states in his deposition that Nancy
Lewellyn never pointed the bb gun at him, Paschal or

8
Deputy Jayroe at any time prior to being shot. (ECF
100, Wiggins Deposition, PageID# 577-578, 582-583,
603-604) Petitioner alleges that Paschal fired the first
shot while Nancy Lewellyn was holding the bb gun and
walking in the driveway, away from Paschal,
Wiggins and Deputy Jayroe while she was
attempting to surrender the bb gun on the hood of the
parked car so that it would be visible and in plain sight
for all to see. (ECF No. 83-3, Dashcam SUV 1, PageID#
345)
Wiggins said in his statement to Bureau of
Professional Standards that when he first saw Nancy
Lewellyn, it looked “like she was under the
influence of something.” (ECF No. 89, Statement,
PageID# 407) Wiggins never saw or heard Nancy
Lewellyn fire a shot from her bb gun because he was
taking cover behind his SUV but Wiggins decided that
Nancy Lewellyn was a threat of death or serious bodily
injury that justified the use of deadly force when he
heard a “shot go off,” without knowing that Nancy
Lewellyn never fired the bb gun and that he
“started putting rounds down range and um,
struck the subject.” (ECF No. 89, Statement,
PageID# 406)
Wiggins never saw Nancy Lewellyn point the bb
gun at anybody on that date but shot at her anyway.
(ECF No. 100, Wiggins Deposition, PageID# 583, 603604) Wiggins shot Nancy Lewellyn four (4) times
without knowing that she never fired her bb gun.
(ECF 89, Statement, PageID# 407) (ECF 83-3, SUV
Dashcam 1, PageID#345) Wiggins admits that at some
point in the shooting, that he did not see the bb gun

9
that Nancy Lewellyn had been holding in her right
hand. (ECF No. 89, Wiggins Statement, PageID# 407)
(ECF No. 100, Wiggins Deposition, PageID# 579-580)
Wiggins states that Nancy Lewellyn never said
anything from the time that she came out of the house
until she was shot multiple times and lying on the
driveway. (ECF No. 89, Wiggins Statement, PageID#
408) Wiggins states in his deposition that Nancy
Lewellyn never pointed the bb gun at him. (ECF No.
100, Marvin Wiggins Deposition, PageID# 577-578,
582, 603)
Wiggins further states in his deposition that Nancy
Lewellyn never pointed the bb gun at Defendant
Robert Paschal. (ECF No. 100, Wiggins Deposition,
PageID# 577, 582, 603-604) Wiggins states in his
deposition that Nancy Lewellyn never pointed the bb
gun at Deputy Jayroe or anybody else that day
before she was shot. (ECF No. 100, Wiggins Deposition,
PageID# 577, 582-583, 604) Wiggins, Paschal and
Deputy Jayroe never verbally identified themselves to
Lewellyn as Shelby County Sheriff’s Deputies prior to
shooting her. (ECF No. 83-3, Dashcam Videos 1, 2, 3,
PageID#345) Wiggins states in his deposition that he
never heard any deputy on the scene say to Nancy
Lewellyn and he did not say, “drop the gun, put the gun
down” before she was shot 10 times. (ECF No. 100,
Wiggins Deposition, PageID# 584, 586) Wiggins states
in his deposition that the bb gun held by Nancy
Lewellyn was not a real gun. (ECF No. 100, Wiggins
Deposition, PageId# 586)
Wiggins admits that Nancy Lewellyn never walked
towards Wiggins or Paschal or Deputy Jayroe when she

10
had the bb gun in her hand but instead Nancy
Lewellyn did just the opposite and turned to her right
and started walking towards the parked car in the
driveway and did not walk towards the deputies.
(ECF No. 100, Wiggins Deposition, PageID# 587-588)
(ECF No. 83-3, Dashcam SUV 1, PageID# 345) Wiggins
stated that he was taking cover behind his SUV 3 and
he never said that he saw Nancy Lewellyn raise the bb
gun while she was in the driveway. (ECF No. 89,
Wiggins Statement, PageID# 404-409) Wiggins admits
that he shot at Nancy Lewellyn four times when he
heard a shot without knowing where the shot came
from. (ECF No. 89. Statement, PageID# 406) Wiggins
further admits that he aimed and fired his gun at
Nancy Lewellyn while she was walking towards the car
in the driveway. (ECF No. 91-1, Paschal Deposition,
PageID# 433, ECF No. 100, Wiggins Deposition,
PageID# 591) (SUV Dashcams 1, 3) Wiggins admits
that he fired four shots at Nancy Lewellyn and doesn’t
recall if he shot her while she was falling down. (ECF
No. 100, Wiggins Deposition, PageID# 597) Deputy
Justin Jayroe was behind SUV 1 and he was the closest
to Nancy Lewellyn but he never fired his weapon at
Nancy Lewellyn but Wiggins does not know why he
didn’t shoot when he states “No, I can’t speak on his
mindset at the time.” (ECF No. 100, Wiggins
Deposition, PageID# 601-603)
Wiggins admits in his deposition that Nancy
Lewellyn never pointed the bb gun at him (Wiggins) or
Paschal or Deputy Jayroe or anyone else on March 17,
2017 before the shooting of Nancy Lewellyn. (ECF No.
100, Wiggins Deposition, PageID# 603-604)

11
Paschal stated that when he first saw Nancy
Lewellyn that she had a gun in her hand and that she
walked out of the front door and turned to Lewellyn’s
right to go down the walkway and then she raised the
bb gun for the first time in the driveway and that’s
when he began to shoot. (ECF 88, Paschal Statement,
PageID# 402, ECF 92, Paschal Deposition, PageID#
458-460, ECF 83-3, SUV Dashcam 1, PageID# 345)
Paschal does not recall giving any verbal commands to
Nancy Lewellyn to drop the weapon before he shot
her. (ECF No. 88, Statement, PageID# 402) Paschal
testified that he knew that he was dealing with a
potentially mentally unstable person when he arrived
at Nancy Lewellyn’s home. (ECF No. 92, Deposition,
PageID# 447) Paschal states that he had a clear view
of Lewellyn’s front door. (ECF No. 92, Deposition,
PageID# 448) and that he “initiated the shooting”.
(ECF No. 92, Deposition, PageID# 453) Paschal
identified Exhibit Nos. 3, 4 and 9 from the scene of the
shooting. (ECF Nos. 93, 93-1, Deposition, PageID# 489491) Petitioner respectfully states that the Sixth
Circuit never considered the photograph exhibits
which Paschal identified and testified to that showed
his location, field of vision and sight line of Lewellyn in
the driveway when he fired his first shot at her. (ECF
Nos. 93, 93-1, PageID 489-490) This admissible
evidence is material and is not blatantly contradicted
by the videos and offers admissible proof that Lewellyn
never aimed her bb gun at Paschal or in his direction
and Paschal was not in fear of death or serious bodily
injury when he fired his first shot and qualified
immunity should have been denied at the summary
judgment stage.

12
Nancy Lewellyn never turned towards the deputies
and raised the bb gun and pointed it at them. (ECF No.
83-3, SUV Dashcam 1) (ECF No. 93, 93-1, Photographs,
PageID# 489-491) Paschal admits that Deputy Jayroe
never fired his gun at Nancy Lewellyn even though he
was the deputy that was closest to her. (ECF No. 92-1,
Deposition, PageID# 466) (ECF No. 83-3, SUV
Dashcams 1,2,3)
Petitioner alleges that Paschal shot Nancy Lewellyn
immediately before the bb gun was slightly raised in
the driveway in the dashcam video. (ECF No. 83-3,
SUV Dashcam 1, PageID#345) Paschal admits that he
first fired two shots at Nancy Lewellyn while she was
walking towards the car in the driveway and then
there was a pause and then the eight other shots
were fired. (ECF No. 92, Deposition, PageID# 467468)
Petitioner alleges that Paschal fired the first shot
and hit Nancy Lewellyn in the back, while the bb gun
was down by her side, causing the reaction from Nancy
Lewellyn to involuntarily raise the bb gun with her
right hand for a second and then lower it back to her
side and then reaching for her back, where Paschal had
shot her and/or she stumbled while walking causing
the bb gun to raise slightly for a second and then go
back down. (ECF No. 83-3, SUV Dashcam 1) (ECF No.
98, Autopsy Report of Nancy Lewellyn, PageID# 551566)
Regardless, Nancy Lewellyn never pointed the bb
gun at anyone, including Wiggins, Paschal and Deputy
Jayroe, and her back was facing Wiggins, Paschal and
Deputy Jayroe and they were never in any danger for

13
the second that the bb gun raised up after and/or at or
near the time that Nancy Lewellyn was shot by
Paschal. (ECF No. 83-3, SUV Dashcam 1, PageID#345,
ECF No. 98, Autopsy Report of Nancy Lewellyn,
PageID# 551-566, ECF No. 100, Wiggins Deposition,
PageID# 577-578, 582, 603-604) Paschal, Wiggins and
Deputy Jayroe were taking cover behind the SUVs with
their guns drawn, looking at Lewellyn’s back, when the
first shots were fired and none were in danger of death
and/or serious bodily injury from Nancy Lewellyn.
(ECF 83-3, Dashcams 1,2,3, PageID#345)
Paschal admits that if Nancy Lewellyn no longer
had the bb gun, that she was not a threat of death or
serious bodily injury to him (Paschal), Wiggins or
Deputy Jayroe. (ECF No. 92, Paschal Deposition,
PageID# 474) Paschal further admits that Wiggins first
said drop the weapon after the 10 shots had been fired
and Nancy Lewellyn laid dying on the ground. (ECF
No. 92, Paschal Deposition, PageID# 478, ECF No. 95,
Autopsy Report PageID#551-566ECF 83-3, SUV
Dashcam 1, PageID#345)
Petitioner argues that the proof shows that after
surrendering the bb gun and obviously placing the bb
gun on the hood of the car parked in the driveway and
prior to falling to the ground, Nancy Lewellyn
stretches out both arms and it is obvious and you can
plainly see that both of her hands are open and empty
and that she is not holding any bb gun or any other
type of weapon. (ECF No. 83-3, SUV Dashcam 1,
PageID# 345)
After the first two shots, there was a pause
described by Paschal, then both Paschal and Wiggins

14
continue to shoot Nancy Lewellyn after she has clearly
surrendered the bb gun on the hood of the car and is
attempting to get back to the house, falling down with
no bb gun in her hand and laying on the concrete
driveway incapacitated, posing no threat of any type to
anyone, bleeding and dying. (ECF No. 83-3, SUV
Dashcam 1, Page ID# 345) (ECF No. 92, Paschal
Deposition, PageID# 482-483) Paschal does not dispute
that the video from Jayroe’s SUV shows Nancy
Lewellyn being shot after she falls on the ground in
the driveway with no weapon in her hands. (ECF
No. 83-3, SUV Dashcam 1, PageID# 345)(ECF No. 92,
Paschal Deposition, PageID# 483-484) Paschal also
admits that if someone is laying on the ground after
being shot and they have no weapon, there would be
no reason to shoot that person. (ECF No. 92,
Paschal Deposition, PageID# 484) Paschal admits that
it is improper to shoot someone after they surrender
their weapon. (ECF No. 92, Paschal Deposition,
PageID# 485) Paschal admits that Wiggins first shouts
drop the weapon after the tenth (10th) shoot is fired.
(ECF No. 92, Paschal Deposition, PageID# 486)
Paschal states that he is approximately sixty (60) feet
away from Nancy Lewellyn when he shoots her and
that Defendant Wiggins is even farther away than
that because Wiggins was behind Paschal. (ECF
No. 92, Paschal Deposition, PageID# 488)
The autopsy report of Nancy Lewellyn reveals that
Nancy Lewellyn died on March 17, 2017 as a result of
multiple gun shot wounds inflicted by Paschal and
Wiggins who shot Nancy Lewellyn a total of no less
than Ten (10) times, with four (4) shots and bullet
wounds to Nancy Lewellyn’s back. Defendant

15
Paschal fired 6 shots and Defendant Wiggins fired 4
shots. (ECF No. 83-3, SUV Dashcams 1, 2,3) (ECF No.
95, Autopsy Report, PageID# 551-566)
Reviewed in the light most favorable to the
Petitioner, the proof would show that Wiggins, Paschal
and Deputy Jayroe never gave any type of order and/or
verbal command to Nancy Lewellyn to drop the bb gun
or put her hands in the air, never gave her any warning
of any type that Wiggins and Paschal would shoot if
she did not obey their commands although it was
feasible and there was ample time to do so before
Paschal fired his first shot.
Nancy Lewellyn was walking away from Paschal
and Wiggins and Deputy Jayroe and attempting to
surrender the bb gun before she was shot by walking
to the car in the driveway and placing the bb gun on
the hood of the car. Nancy Lewellyn never pointed the
bb gun at Respondents or Deputy Jayroe and her back
was to them when she was walking towards the car
parked in the driveway. (ECF No. 83-3, SUV Dashcam
1, PageID# 345) Petitioner would allege that Lewellyn
raised her hand with the bb gun at the time she was
shot the first time and the raising of the bb gun was a
reaction to being shot or Lewellyn was shot while she
stumbled while walking. Regardless, the bb gun was
not pointed in the direction of Paschal or Wiggins and
the bb gun was quickly lowered as Lewellyn grabs for
her back where she was shot and she never pointed
and/or shot the bb gun at anyone on the scene.
Petitioner respectfully states that the Sixth Circuit
Court of Appeals committed error by not viewing the
evidence offered by the Petitioner which was not

16
blatantly contradicted by the dash cam videos, in the
light most favorable to the Petitioner and drawing all
inferences in the Petitioner’s favor.
Further, Nancy Lewellyn was shot multiple times
after she surrendered the bb gun in plain sight on the
hood of the car in the driveway. (ECF No. 83-3, SUV
Dashcam 1, PageID# 345) Nancy Lewellyn was shot
multiple times after she surrendered the bb gun, with
her arms extended and hands out and empty as she
was walking and falling in plain and obvious sight to
Paschal and Wiggins.(ECF No. 83-3, SUV Dashcam 1,
PageID# 345)
Petitioner states that the shooting of Lewellyn
multiple times after she had obviously surrendered the
bb gun and/or laying without the bb gun while she was
falling and laying on the ground constitutes gratuitous
violence and a violation of Lewellyn’s constitutional
rights that were clearly established and summary
judgment should not have been granted in this cause.
The dashcam videos do not so utterly discredit
Petitioner’s material evidence so that no jury could
believe it.
Paschal identified two exhibits during his deposition
that fairly and accurately depict the location of the
three SUVs parked behind each other at the time of the
shooting of Nancy Lewellyn (ECF No. 93, Photograph
Exhibit, PageID# 489, ECF No. 93-1, Photograph
Exhibit, PageID# 490) and the spot on the driveway
where Nancy Lewellyn had fallen after being shot and
Paschal’s sight, field of vision and perspective when
Paschal fired his first shot at Lewellyn. (ECF No. 93-2,
Photograph Exhibit, PageID# 490-491)

17
Importantly, the photograph exhibit found at ECF
93-1, Exhibit, PageID# 490 shows the location where
Defendant Robert Paschal was standing to the right of
Jayroe’s SUV, his field of vision and line of sight in
relation to Lewellyn and her home when he first shot
her. The Sixth Circuit refused and did not consider this
material evidence which provides a genuine dispute to
material fact and it was error not to consider the
photographs contained in ECF Nos. 93 and 93-1 which
should have been viewed in the light most favorable to
the Petitioner and in conjunction with the three dash
cam videos which would have established a dispute as
to material fact as to whether the Respondents had a
reasonable objective fear of death or serious bodily
injury when Paschal fired his first shot. A review of
ECF Nos. 93 and 93-1, PageID# 489-490 and ECF No.
83-3, SUV Dashcams1, 2 and 3, PageID#345 provides
proof that Nancy Lewellyn was walking away from
Defendants, with her back to Respondents and not
aiming the bb gun at Paschal, when she was first
shot by Paschal, as evidenced by bullet wounds and/or
graze bullet wounds to Nancy Lewellyn’s back and that
Nancy Lewellyn never pointed the bb gun at anyone.
(ECF No. 98, Autopsy Report of Nancy Lewellyn,
PageID# 551-566)
The photographs and videos contained within ECF
Nos. 93 and 93-1 and ECF 83-3, Dashcams SUV 1,2 3
do not blatantly contradict Petitioner’s admissible
evidence and when viewed in conjunction with each
other, provide admissible proof of disputed material
fact that Nancy Lewellyn never pointed the bb gun at
and/or in the vicinity where Wiggins and Paschal and
were located at the time that the first shots were fired.

18
(ECF No. 93, 93-1, Photographs, PageID# 489-491)
Exhibit 93-1, Page ID# 490 proves the location, sight
line and field of vision of Paschal when he shot
Lewellyn. Paschal stated that he was approximately
Sixty (60) feet away from Nancy Lewellyn when he shot
her. Respondent Paschal stated that Respondent
Wiggins was more than Sixty (60) feet away from
Nancy Lewellyn when she was shot because Wiggins
was standing behind him (Paschal) when Paschal shot.
Therefore, there is admissible proof of a disputed
material fact that a jury should decide regarding
whether Respondents had an objective fear of
imminent death and/or serious bodily injury to Wiggins
and Paschal or Deputy Jayroe or anyone else when
Nancy Lewellyn was shot by Paschal and continued to
be shot a total of Ten (10) times and killed.
When Paschal fired the first two shots, striking
Nancy Lewellyn in the back and/or grazing her back,
Paschal stated in his deposition that there is a pause
in the shooting and Nancy Lewellyn is seen in the
video trying to hurriedly walk to the parked car to
obviously surrender the bb gun on the hood of the
parked car in the driveway, in plain and obvious sight
to Wiggins and Paschal and Deputy Jayroe.
Wiggins and Paschal were not separated after
the shooting but kept together with Deputy Jayroe
after the shooting so that they could get their stories
straight in violation of the Deadly Force Policy of the
Shelby County Sheriff’s Department. (ECF No. 99,
Deadly Force Policy, PageID# 567-571). This violation
calls Respondents’ veracity and credibility into
question regarding their deposition testimony and

19
statements made to the Sheriff’s Department. (ECF
No. 83-3, Dashcams SUV 1 and 2, Time 12:24-12:36
p.m., PageID #345)
REASONS FOR GRANTING THE
WRIT OF CERTIORARI
A. The ruling of the U.S. Court of Appeals violates
the basic fundamental principles of Rule 56 of the
Federal Rules of Civil Procedure and therefore in direct
conflict with the existing precedent of the United
States Supreme Court’s holdings in Tolan v. Cottan,
572 U.S. 650 (2014) and Scott v. Harris, 550 U.S. 372
(2007). Respectfully, the Sixth Circuit improperly
weighed evidence and resolved disputed issues in favor
of the moving party by failing to credit key evidence
offered by the Petitioner. In ruling on a motion for
summary judgment, “[t]he evidence of the nonmovant
is to be believed, and all justifiable inferences are to be
drawn in his favor.” Tolan v. Cottan, Id at page 651.
The Sixth Circuit only considered the dash cam videos
in making the determination that Lewellyn posed a
threat of death or serious bodily injury at the time that
Paschal fired the first shot at Lewellyn. The cameras
located in the three SUVs did not provide the same
field of vision and/or sight line that Paschal had
standing outside and to the right of Jayroe’s SUV.
Paschal’s own deposition testimony provided material
evidence through the photograph exhibit of his location,
sight line and field of vision of Lewellyn when he fired
his first shot. (ECF No. 93-1, PageID 490) Further,
Paschal was at least sixty (60) feet away from Lewellyn
when he fired his first shot. A careful review of
photograph exhibits 93 and 93-1 when viewed in

20
conjunction with the dashcam videos provides
admissible proof that Lewellyn never pointed the bb
gun at or in the direction of Paschal. As a result,
Petitioner has presented admissible evidence of a
material disputed fact that Paschal never had an
objective reasonable fear of death and/or serious bodily
injury when he fired his first shot at Lewellyn that
should be resolved by a jury and summary judgment
was granted in error.
B. The shooting of a mentally disturbed person
such as Lewellyn, eight times by Respondents after
the dash cam videos clearly show that Lewellyn had
obviously surrendered the bb gun and/or fell to the
ground without the bb gun or weapon and posed no
threat to Respondents, constitutes gratuitous violence
and excessive force that is a constitutional violation
and clearly established under the law and/or an
obvious case. The United States Supreme Court
recognized and held
…This would be a different case if petitioners
had initiated a second round of shots after an
initial round had clearly incapacitated
Rickard…or if Rickard had clearly given himself
up…
Plumhoff v. Rickard, 572 U.S. 765, 774 (2014)
The law in the Sixth Circuit is clearly established
that suspects who are unarmed and who have
surrendered are not subject to gratuitous violence
during arrest. The Sixth Circuit has recognized that
“We have … consistently held that various types of
force applied after the subduing of a suspect are

21
unreasonable and a violation of a clearly established
right.” McCaig v. Raber, 515 Fed.Appx. 551 (6th Cir.
2013) (unpublished) The Sixth Circuit has previously
recognized that it is clearly established that shooting a
suspect who is incapacitated or while no longer a threat
is gratuitous violence and excessive force in violation of
the constitution. Margeson v. White County,
Tennessee, 579 Fed.Appx. 466 (6th Cir. 2014)
(unpublished) In this case, the Court of Appeals did not
consider whether the continued shooting of Nancy
Lewellyn multiple times after she had obviously
surrendered the bb gun and/or after falling to the
ground with no bb gun or weapon created issues
regarding gratuitous violence and excessive force that
a jury would have to resolve, precluding summary
judgment to the Respondents.
Wiggins and Paschal never had an objective
reasonable fear of death or imminent serious bodily
injury to themselves or anyone else when they shot
Nancy Lewellyn Ten (10) times without giving any type
of warning or command of any type, including but not
limited to: put down the bb gun, show her hands, place
her hands in the air, stop walking, stand still or freeze,
get on the ground and/or stop and it was feasible to do
so before the first shot was fired by Paschal. Wiggins
and Paschal shot Nancy Lewellyn ten (10) times with
four shots to her back, mortally wounding her when:
she was at home (private property) and had not
committed a crime, she had called 911 saying that she
was out of medicine and was going to kill herself, was
obviously mentally unstable and/or suffering a mental
crisis of some type, she never verbally threatened them
in person, never was charged with a crime of any type,

22
never aimed the bb gun at anyone, never fired the bb
gun at anyone and Paschal and Wiggins had no
knowledge that Lewellyn had harmed anyone prior to
Paschal, Wiggins and Deputy Jayroe arriving on the
scene and shooting her multiple times.
Lewellyn never walked towards Paschal, Wiggins or
Deputy Jayroe but instead walked away from them
when she attempted to and surrendered the bb gun in
plain and obvious sight on the hood of the parked car in
the driveway. As she was attempting to do so, Paschal
fires his first shot and then there was a pause in the
shooting after the first two shots. Lewellyn reacts
to being shot and then staggers toward the parked car
and places the bb gun on the hood of the car. Paschal
and Wiggins knew that Nancy Lewellyn had been shot
and had obviously surrendered the bb gun in plain
sight but they continued to shoot her eight more times
as she falls to the ground and she is shot multiple
times while she is laying on the ground obviously
unarmed, defenseless and after she had surrendered.
At the time that the first shot was fired by Paschal,
Wiggins, Paschal and Deputy Jayroe were taking cover
behind the SUVs and not in danger and/or fear of death
or serious bodily injury to themselves or anyone else.
When the shots struck Nancy Lewellyn, it was in broad
daylight and Paschal and Wiggins clearly saw Nancy
Lewellyn surrender the bb gun who was then unarmed
and shot 8 more times in the driveway of her home.
Prior to shooting Nancy Lewellyn ten (10) times
with four gun shots to her back, Paschal, Wiggins and
Deputy Jayroe: never identified themselves as Shelby

23
County Sheriff’s Deputies, never ordered Lewellyn to
drop the bb gun, never ordered Lewellyn to show her
hands, put her arms up, stop walking or any thing else
although there was ample time to do so before using
deadly force. Wiggins and Paschal’s actions in shooting
Nancy Lewellyn Ten (10) times were not objectively
reasonable under the totality of the circumstances. As
a result, Wiggins and Paschal violated Nancy
Lewellyn’s constitutional rights when they shot and
killed her and those rights were clearly established on
March 17, 2017 and Respondents were on notice of
their constitutional violations. Existing precedent from
the United States Supreme Court and the Sixth Circuit
Court of Appeals squarely governs the facts of this case
and the shooting violated clearly established law. In
the alternative, the shooting of Nancy Lewellyn
constituted gratuitous violence and was an “obvious”
violation of Nancy Lewellyn’s constitutional rights.
Wiggins and Paschal’s shooting of Nancy Lewellyn
multiple times, no less than Ten (10) times, when she
posed no threat of death or serious bodily injury to
Paschal, Wiggins or Deputy Jayroe or anyone else, was
objectively unreasonable under the totality of the
circumstances and therefore constitutes excessive force
in violation of the United States Constitution.
(Lewellyn Autopsy Report, ECF No. 98) Paschal and
Wiggins never gave Lewellyn any order or command
of any type prior to Paschal and Wiggins shooting
Lewellyn ten (10) times with four (4) shots to the her
back. This Honorable Court should grant the
Petitioner’s Writ of Certiorari and should reverse the
ruling of the Sixth Circuit and affirm the District
Court’s denial of qualified immunity for Paschal and

24
Wiggins and should remand this matter for trial by
jury for resolution.
The Courts resolve questions of qualified immunity
at the summary judgment stage by determining
whether the record shows no genuine issue as to any
material fact and that the moving party is entitled to
judgment as a matter of law. Rule 56(a) of the Federal
Rules of Civil Procedure. Credibility judgments and
weighing of evidence are prohibited in a reviewing a
summary judgment motion. Schreiber v. Moe, 596 F.3d
323, 333 (6th Cir. 2010) The Courts view all facts and
related inferences in the light most favorable to the
non-moving party. Davenport v. Causey, 521 F.3d 544,
550 (6th Cir. 2008) The Court should not adopt the
non-moving party’s version of the facts for purposes of
summary judgment onlywhere the videotape capturing
the events in question blatantly contradict the
Plaintiff’s version of events so that no reasonable jury
could believe it. Scott v. Harris, 550 U.S. 372 (2007). In
this cause, the Sixth Circuit only relied upon the dash
cam videos and did not consider relevant admissible
evidence offered by the Petitioner, which was not
blatantly contradicted by the videos, that should have
been viewed in a light most favorable to the Petitioner
and in conjunction with the dash cam videos.
In this case, the dashcams do not depict all of
the genuinely disputed facts, such as the
perspective of Wiggins and Paschal immediately prior
to and during the shooting of Nancy Lewellyn. Further,
the dashcams do not “blatantly contradict the
Petitioner’s version of events so that no reasonable jury
could believe it.” Paschal and Wiggins were both out of

25
their SUVs when they fired their guns ten times at
Lewellyn. The location of the cameras in the SUVs do
not have the same field of vision or sight line that
Paschal had while standing to the right of Jayroe’s
SUV and firing his gun. Exhibits 93 and 931(PageID489-490) are material evidence that the Sixth
Circuit should have considered in the light most
favorable to the Petitioner as to whether Respondents
were in objective danger of death or serious bodily
injury when they fired their weapons ten times at
Lewellyn.
The Courts apply a two-prong test and inquire
whether (1) whether the facts, taken in the light most
favorable to the party asserting the injury, show that
the officer’s conduct violated a constitutional right and
(2) whether the right violated was clearly established
such that “a reasonable official would understand that
what he is doing violates that right. Saucier v. Katz,
533 U.S. 194, 201-02 (2001) It is black letter law that
individuals have a clearly established right not to be
shot absent a probable cause belief that that individual
poses a threat of serious physical harm. Mullins v.
Cyranek, 805 F.3d 760, 765 (6th Cir. 2015) Further,
just because the Courts must look at the circumstances
through the eyes of a reasonable officer does not
mean that the Courts must accept the officer’s
subjective view of the facts when making the
assessment. Rather, the Courts must conduct the
reasonable officer analysis using the facts in the in the
light most favorable to the plaintiff. Bougess v.
Mattingly, 482 F.3d 886, pages 887-889 (6th Cir. 2007).

26
The United States Supreme Court has held that
“Apprehension by use of deadly force is a seizure
subject to the reasonableness requirement of the
Fourth Amendment.” Tennessee v. Garner, 471 U.S. 1,
7 (1983) The Sixth Circuit has authorized the use of
deadly force “only in rare instances.” Sample v. Bailey,
409 F.3d 689, 697 (6th Cir. 2005) “It has been clearly
established in this circuit for some time that
individuals have a right not to be shot unless they are
perceived as posing a threat to officers or others.” King
v. Taylor, 694 F.3d 650, 664 (6th Cir. 2012) see also;
Ciminillo v. Streicher, 434 F.3d 461, 468 (6th Cir.
2006); Robinson v. Bibb, 840 F.2d 349, 351 (6th Cir.
1988); Bletz v. Gribble, 641 F.3d 743, 752 (6th Cir.
2011); Yates v. City of Cleveland, 941 F.2d 444, 447
(6th Cir. 1991).
Excessive force claims are analyzed under an
objective reasonableness standard. Graham v.
Connor, 490 U.S. 386, 397 (1989) The Courts consider
the facts and circumstances of each case, including the
severity of the crime at issue; whether the suspect
posed an immediate threat to the safety of the officers
or others; and whether the suspect was actively
resisting arrest or attempting to evade arrest by flight.
Sigley v. City of Parma Heights, 437 F.3d 527, 534 (6th
Cir. 2006) The ultimate inquiry must always be
whether the totality of the circumstances justified the
use of force. Mullins v. Cyranek, 805 F.3d 760 (6th Cir.
2015) “In excessive force cases, the threat factor is a
‘minimum requirement for the use of deadly
force,’ meaning that deadly force ‘may be used only if
the officer has probable cause to believe that the
suspect poses a threat of severe physical harm.”

27
Mullins v. Cyranek, 805 F.3d 760, 766 (6th Cir. 2015)
quoting Untalan v. City of Lorain, 430 F.3d 312, 314
(6th Cir. 2005)). It is established black letter law in the
Sixth Circuit that merely possessing a weapon is
not enough, the officer must reasonably believe the
individual poses a danger of death or serious physical
harm to himself or others to justify the use of deadly
force. Bouggess v. Mattingly, 482 F.3d 886 (6th Cir.
2007); see also Dickerson v. McClellan, 101 F.3d 1151
(6th Cir. 1996) Instead, whether a suspect has a
weapon constitutes just one consideration in assessing
the totality of the circumstances. Thomas v. City of
Columbus, 854 F.3d 361, 366 (6th Cir. 2017) “But just
because we must look at the circumstances through the
eyes of a reasonable officer does not mean, as
defendants suggest, that we must accept the officers’
subjective view of the facts when making this
assessment. … we must conduct the reasonable officer
analysis using the facts in the light most favorable to
plaintiff. Bouggess v. Mattingly, 482 F.3d at 887, 889.
“Whether the use of deadly force at a particular
moment is reasonable depends on an objective
assessment of the danger a suspect poses at the
moment. The assessment must be made from the
perspective of a reasonable officer in the defendant’s
position.” Bouggess, 482 F.3d at 889. Ultimately, the
question is “whether the totality of the circumstances
justified a particular sort of … seizure.” Tennessee v.
Garner, 471 U.S. 1, 8-9 (1983) Further, “the fact that a
situation unfolds relatively quickly does not, by itself,
permit an officer to use deadly force”. Kirby v. Duva,
530 F.3d 475, 483 (6th Cir. 2008) “Even a split-second
decision, if sufficiently wrong, may not be protected by

28
qualified immunity.” Bouggess v.Mattingly, 482 F.3d
886, 894 (6th Cir. 2007)
“To the extent that facts shown on video can be
interpreted in multiple ways” or are otherwise unclear,
that video too must be “viewed in the light most
favorable to the plaintiff”. Latits v. Phillips, 878 F.3d
541, 547 (6th Cir. 2017)
The caselaw in the Sixth Circuit is replete with
cases in which the Courts have denied an officer’s
qualified immunity when taking the facts in the light
most favorable to the Plaintiff where the suspect did
not pose a serious threat to the officer. See, e.g. , King
v. Taylor, 694 F.3d at 662-63 (noting fact dispute as to
whether the suspect pointed gun at officers);
Brandenburg v. Cureton, 882 F.2d 211 (6th Cir. 1989)
(similar); Bletz v. Gribble, 641 F.3d at 752 (disputed
facts over whether decedent was putting gun down
when he was shot)
In Kisela v. Hughes, the United States Supreme
Court reminded and reaffirmed the controlling law that
an officer may violate a clearly established
constitutional right in an obvious case in which any
competent officer would have known that the use of
deadly force by the officer under the circumstances
would be excessive and violate the Fourth Amendment.
Kisela v. Hughes, 138 S. Ct. 1148 (2018) Plaintiff has
presented material facts in this case that sets out such
an obvious case.The shooting of Nancy Lewellyn,
multiple times with four shots to her back, was
objectively unreasonable considering the totality of the
circumstances presented and therefore a constitutional

29
violation by Paschal’s and Wiggins’ use of excessive
force against Nancy Lewellyn.
Petitioner relies upon the cases previously cited and
the following cases which were in force prior to the
shooting of Nancy Lewellyn on March 17, 2017 to show
that the constitutional right was clearly established or
an “obvious case”. In the alternative, existing precedent
squarely governs the specific facts at issue that places
the constitutional question beyond debate and/or a
consensus of cases of persuasive authority that clearly
establish the constitutional right:
Supreme Court of the United States:
Plumhoff v. Rickard, 572 U.S. 765 (2014)
Sixth Circuit Decisions:
King v. Taylor, 694 F.3d 650 (6th Cir. 2012)
Qualified immunity denied noting factual dispute as
to whether suspect pointed gun at officers.
Brandenburg v. Cureton, 882 F.2d 211 (6th Cir.
1989) Qualified immunity was denied where there
was a dispute as to whether the suspect was putting
the gun down or not when he was shot and whether
suspect was pointing the gun at police when shot.
Dickerson v. McClellan, 101 F.3d 1151 (6th Cir.
1996); Holding that despite uncontroverted evidence
of serious danger to officers stemming from the
suspect’s clear possession of a weapon, his recent
firing of the weapon, and his threatening language
toward the police, because it was undisputed that
the suspect was nonthreatening when he was shot,

30
the officer was not entitled to qualified immunity.
As here, there is a time dispute as to the first shot.
Disputed issues of material fact as to whether
officer’s shot to suspect’s back without ever
attempting to announce his presence or to issue a
warning before shooting suspect. Only the facts
known to the officer at the time of the alleged
violation are to be considered. Disputed issue of fact
that precludes summary judgment regarding the
time of the first shot and whether suspect was
pointing gun a police or not.
Bouggess v. Mattingly, 482 F.3d 886 (6th Cir. 2007)
Qualified immunity denied where officer never
warned suspect that he might shoot, as
required by Garner when feasible under the
circumstances. Nothing indicates that a
warning was infeasible. Craighead v. Lee, 399
F.3d at 962 denying qualified immunity in part,
because “the facts we are required to assume
show that a warning was feasible but not
given.” “A suspect’s flight on foot, without more,
cannot justify the use of deadly force.” Id. at 891.
Margeson v. White County, Tennessee, 579
Fed.Appx. 466 (6th Cir. 2014) (unpublished) This
opinion and precedent from the Sixth Circuit held
that genuine issues of material fact remained in
dispute regarding whether three police officers used
reasonable amount of force in shooting victim to
death multiple times, with at least 12 shots after
the suspect had fallen down. Genuine issues of
material fact remained as to whether three police
officers used gratuitous violence during arrest or

31
reasonable amount of force in shooting victim to
death by firing 43 shots including at least 12 shots
after he had fallen to the ground with multiple
gunshot wounds, thus precluding summary
judgment on his widow’s Section 1983 claim of
excessive force. Petitioner further relies upon this
precedent to establish that Respondents violated
clearly established law in the multiple shooting of
Nancy Lewellyn and shooting Nancy Lewellyn after
she had surrendered her bb gun and lay unarmed
on the ground but still shot multiple times. Nancy
Lewellyn suffered at least four gun shots to her
back. This decision by the Sixth Circuit “squarely
governs” this case and establishes clearly
established law in Petitioner’s favor that precludes
summary judgment in this cause.
Considering the facts in the light most favorable to
the Petitioner, there is admissible proof and/or
inferences that Nancy Lewellyn had not committed a
crime but was instead mentally and/or emotionally
unstable prior to the shooting, Nancy Lewellyn had not
pointed the bb gun at anyone, Nancy Lewellyn did not
verbally threaten Paschal, Wiggins or Deputy Jayroe
when they arrived on the scene, Nancy Lewellyn did
not move towards the Respondents or Deputies but did
just the opposite, she turned to her right and started
walking away from the Respondents and Deputy
Jayroe before she was shot, Nancy Lewellyn did not
turn around and face Paschal or Wiggins or Deputy
Jayroe and/or aim the bb gun at anyone. Further,
Nancy Lewellyn was attempting to surrender the bb
gun prior to being shot, made no aggressive moves
towards the Respondents or Deputy Jayroe,

32
surrendered the bb gun on the hood of the car in plain
sight to the Respondents and Deputy Jayroe. Once
Nancy Lewellyn surrendered the bb gun on the hood of
the car, it was obvious that she had surrendered the bb
gun and she was therefore unarmed. Even after
surrendering the bb gun in obvious and plain sight,
Nancy Lewellyn was shot multiple times as she
attempted to go back to the house unarmed. Nancy
Lewellyn was shot multiple times while she was
unarmed and while she was falling to the ground and
after she fell on the ground, defenseless and unarmed,
resulting in her Wrongful Death. Prior to shooting
Lewellyn ten times, neither Paschal, Wiggins or
Deputy Jayroe ever gave any order or command to
Lewellyn to drop the bb gun, show her hands, raise her
arms in the air and/or any other command although
they had the time to do so. Nancy Lewellyn was not a
threat of death or serious bodily injury or harm under
the totality of the circumstances. As a result, the
constitutional rights and contours are sufficiently
definite with established precedent that would have
placed Wiggins and Paschal and any reasonable law
enforcement officer on notice that a reasonable official
in their position would have known that they were
violating the constitutional rights of Nancy Lewellyn
when they shot her causing her severe damages and
premature extremely painful Wrongful Death.
Nancy Lewellyn clearly was a person suffering from
mental crisis and/or mental problems and she needed
mental health treatment not being shot Ten (10) times
with Four (4) shots to her back, causing her Wrongful
Death on March 17, 2017. Respectfully, the Sixth
Circuit committed error when it misapplied the basic

33
principles of Rule 56 of the Federal Rules of Civil
Procedure and entered a judgment in conflict with the
Supreme Court precedent in the holdings of Tolan v.
Cottan and Scott v. Harris by failing to view the
Petitioner’s evidence in the light most favorable to the
nonmoving party when that admissible evidence was
not blatantly contradicted by the videos. Further, the
Sixth Circuit committed error by failing to recognize
that Respondents were guilty of gratuitous violence
and excessive force against Nancy Lewellyn for
shooting her multiple times after she had clearly and
obviously surrendered the bb gun and/or while she was
incapacitated and falling and/or shooting her multiple
times after she was lying on the ground in a helpless
condition.
CONCLUSION
Petitioner respectfully requests that this Honorable
Court grant the Petitioner’s Writ of Certiorari in this
cause.
Respectfully submitted,
DANIEL A. SEWARD
Counsel of Record
SEWARD LAW FIRM
4510 Chickasaw Road
Memphis, TN 38117
(901) 647-5848
sewardlawfirm@aol.com
Counsel for Petitioner

